                 U.S. Department of Agriculture

                     Office of Inspector General
                                Northeast Region




     Audit Report

Food and Nutrition Service
  Food Stamp Program
  Administrative Costs
       New Jersey




                      Report No. 27002-25-Hy
                             September 2008
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                            Northeast Region
                                               Suite 2-2230
                                  5601 Sunnyside Avenue, Stop 5300
                                    Beltsville, Maryland 20705-5300




September 10, 2008

REPLY TO
ATTN OF:      27002-25-Hy

TO:           Yvette Jackson
              Regional Administrator
              Food and Nutrition Service

THROUGH: Catherine Lueck
         Director
         Financial Management

FROM:         Gil H. Harden /s/
              Regional Inspector General
                 for Audit

SUBJECT:      Food and Nutrition Service Food Stamp Program Administrative Costs, New Jersey


This report presents the results of our audit of the Food and Nutrition Service’s Food Stamp
Program Administrative Costs in New Jersey. Your response to the official draft, dated
September 3, 2008, is included as Exhibit A. Excerpts of your response and the Office of
Inspector General’s position are incorporated into the Findings and Recommendations section of
the report. Based on your response, we were able to reach management decision on two of the
report’s five recommendations. Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary

Results in Brief                      The Food and Nutrition Service (FNS) administers the Food Stamp Program
                                      (FSP) which is intended to be the primary source of nutrition assistance for
                                      low-income people. The FSP increases their food purchasing power by
                                      providing benefits that are redeemed at retail grocery stores. State agencies
                                      administer the program and receive administrative funding from FNS to
                                      operate the FSP in each State. In New Jersey, the FNS Mid-Atlantic Regional
                                      Office (MARO) oversees the New Jersey Department of Human Services’
                                      Division of Family Development’s (State agency) administration of the
                                      program. In fiscal year 2006, New Jersey received almost $91 million in
                                      administrative funding. The Office of Inspector General (OIG) initiated this
                                      audit to determine the accuracy and allowability of administrative costs
                                      claimed by the State agency. Of the almost $91 million in administrative
                                      funding, we selected the cost of applicant certification for review because it was
                                      almost 50 percent ($45.3 million) of the total claim.

                                      Based on our review at 3 of the 21 New Jersey County Welfare Agencies
                                      (CWA), we concluded that the State agency needs to improve its controls
                                      over how FSP administrative costs are allocated to the program. We reviewed
                                      payroll costs in three counties: Essex, Ocean, and Mercer. Our review
                                      included over $10.5 million of the almost $45 million in total payroll costs
                                      allocated in New Jersey during the period January 1, 2006, through
                                      March 31, 2006.

                                      The three counties included in our review did not adhere to approved
                                      methods when payroll costs were allocated to the FSP. Each CWA in New
                                      Jersey has staffs that are assigned to different work units that provide
                                      assistance to applicants for welfare programs, including the FSP.
                                      Administrative costs are either allocated for each unit based on an approved
                                      method, one of which being a statistical random moment time study1 or
                                      distributed based on employee personnel activity reports that should reflect
                                      actual activity for each employee. We found that the three counties did not
                                      ensure employees’ salaries were charged to the correct work units and two
                                      counties did not ensure that all employees were included in the sample
                                      universe prior to making sample selections for the random moment time
                                      studies. This occurred because county staff misunderstood instructions from
                                      the State agency relating to requirements for the random moment time
                                      studies. The State agency had not ensured allocations were in compliance
                                      with procedures because it relied on Office of Management and Budget


1
    Under random moment time studies, management selects a statistical sample of employees to indicate the programs they worked on at the sample time.
USDA/OIG-A/27002-25-Hy                                                                                                                        Page i
                                       (OMB)2 Circular A-133 Single Audits3 to identify noncompliance with
                                       procedures. However, the A-133 Compliance Supplement suggests, but does
                                       not require, testing of a State agency’s cost allocation plan. As a result, there
                                       is no assurance that payroll cost allocation was addressed in the Single Audits
                                       and costs were appropriately and equitably charged to the FSP.

                                             For all three counties included in our review, payroll costs for employees
                                             were not appropriately charged to the work units for which personnel
                                             were performing activities prior to allocating the costs to specific
                                             programs. In Essex County, we identified 42 employees whose payroll
                                             costs totaled almost $515,000 that were not charged to the work unit for
                                             which they performed activities. In Ocean County, 32 employees’ payroll
                                             costs of more than $551,000 were charged to an incorrect unit, and in
                                             Mercer County, one employee’s salary costs of about $19,000 were
                                             charged to the wrong unit.

                                             Employees were excluded or improperly included in the universe for
                                             random moment time studies. Two county offices did not always include
                                             all eligible workers in the study or workers were included in an incorrect
                                             work unit. OMB Circular A-874 requires that when statistical sampling
                                             methods are used, the sampling universe must include all of the
                                             employees whose salaries are to be allocated based on the sample results.
                                             This occurred in both Essex and Ocean counties. The errors we identified
                                             could invalidate the statistical results of the random moment studies.

                                             For one work unit in Ocean County, costs were allocated for
                                             60 employees based on the activities of only 6 of the unit’s employees.
                                             For this work unit, a statistical random moment study was not used to
                                             allocate costs. OMB Circular A-87 requires that when employees work on
                                             multiple activities, a distribution of their salaries will be supported by
                                             personnel activity reports which reflect actual activity for each employee.
                                             There is no allowance to allocate costs based on a sample of employees
                                             unless a statistical method is used. Costs should have been allocated
                                             based on each employee’s activity report. However, there were no
                                             activity reports for these 60 Ocean county employees.



2
    The OMB, a part of the Executive Office of the President, develops and provides direction on the implementation of financial management policies and
    systems.
3
    OMB Circular A-133 established standards for consistency and uniformity among Federal agencies for the audit of States, local governments, and
    non-profit organizations expending Federal awards. Independent auditors perform these audits, generally annually, with general requirements for all
    Federal awards and additional program specific tests established by the Federal entity providing the program funds. The Circular assigns a cognizant
    Federal agency, in this case the U.S. Department of Health and Human Services, to oversee the audit and ensure it complies with the general and
    program specific requirements.
4
    OMB Circular A-87 established principles and standards for determining costs for Federal awards carried out through grants, cost reimbursement
    contracts, and other agreements with State and local governments and Federally recognized Indian tribal governments (governmental units). The latest
    revision of this Circular was dated May 10, 2004. The Circular allows for the allocation of salaries for the sampled employees’ supervisors, clerical, and
    support staff based on the results of the sampled employees.
USDA/OIG-A/27002-25-Hy                                                                                                                             Page ii
                                      Even though the dollar values cited in this report relate only to employees’
                                      salaries and fringe benefits, the allocation of overhead and other support unit
                                      costs could also be affected by the identified salary and personnel
                                      misclassifications.5 For example, each county’s rent expense is allocated to
                                      work units based on the units’ staff counts; therefore, if an employee was
                                      incorrectly included in a particular unit, then the allocation of rent would be
                                      incorrect.

                                      FNS needs to implement controls to ensure that New Jersey administrative
                                      costs are properly allocated to the FSP in accordance with Federal and State
                                      regulations and procedures.

Recommendations
In Brief                              FNS should instruct the State agency to develop and implement a corrective
                                      action plan to ensure that New Jersey payroll costs are properly charged to
                                      work units and allocated to benefiting programs. The State agency should
                                      also perform annual reviews of FSP administrative costs and review random
                                      moment time studies in all counties to ensure eligible employees are included
                                      in the sample universe. Lastly, the State agency should provide training to
                                      county office staff to ensure all future costs are properly allocated.

Agency Response
                                      FNS agreed with the report’s five recommendations. We have incorporated
                                      FNS’ response in the Findings and Recommendations section of this report,
                                      along with the OIG position. The responses from FNS and the State agency
                                      are included in Exhibit A.

OIG Position
                                      Based on FNS’ response, we were able to reach management decision on
                                      Recommendations 2 and 5. Management decision on Recommendations 1, 3,
                                      and 4 can be reached once FNS has provided us with the additional
                                      information outlined in the report section, OIG Position.




5
    We did not determine the specific dollar impact in the counties we reviewed due to the assumptions that would have been necessary to allocate staff
    counts or determine the amount of time staff performed particular activities.
USDA/OIG-A/27002-25-Hy                                                                                                                      Page iii
Abbreviations Used in This Report


CWA                      County Welfare Agency
DFD                      Division of Family Development
FNS                      Food and Nutrition Service
FSP                      Food Stamp Program
FY                       Fiscal Year
HHS                      Department of Health and Human Services
MARO                     Mid-Atlantic Regional Office
State agency             New Jersey Department of Human Services’ Division of Family
                         Development
OIG                      Office of Inspector General
OMB                      Office of Management and Budget
TANF                     Temporary Assistance to Needy Families
USDA                     U.S. Department of Agriculture




USDA/OIG-A/27002-25-Hy                                                        Page iv
Table of Contents

Executive Summary ................................................................................................................................. i

Abbreviations Used in This Report ...................................................................................................... iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1            New Jersey Counties Improperly Allocated Payroll Costs .................................... 3

        Finding 1 ………………………………………………………………………….. .................... 3
                     Recommendation 1........................................................................................... 7
                     Recommendation 2........................................................................................... 8
                     Recommendation 3........................................................................................... 8
                     Recommendation 4........................................................................................... 9
                     Recommendation 5......................................................................................... 10

Scope and Methodology........................................................................................................................ 12

Exhibit A – Agency Response .............................................................................................................. 14




USDA/OIG-A/27002-25-Hy                                                                                                                     Page v
Background and Objectives
Background         The Food and Nutrition Service (FNS), an agency of the U.S.
                   Department of Agriculture (USDA) partners with the governments of
                   the 50 States, the District of Columbia and the U.S. Territories to
                   implement the Food Stamp Act, as amended. This Act was designed to
                   improve the Nation’s food security and reduce hunger by providing
                   low-income people access to food, a healthy diet, and nutrition
                   education. The Food Stamp Program (FSP) is part of the Federal
                   Government’s effort to meet its objective to provide for the general
                   welfare of the Nation’s population.

                   FNS funds the full cost of food stamp benefits and generally reimburses
                   the States for 50 percent of their direct and indirect administrative
                   costs. In fiscal year (FY) 2006, over $33 billion in FSP benefits were
                   provided to recipients. An additional $2.5 billion was provided to
                   States for administrative costs. New Jersey received almost $91 million
                   in administrative funding. In New Jersey, the FNS Mid-Atlantic
                   Regional Office (MARO) oversees the New Jersey Department of
                   Human Services’ Division of Family Development’s (State agency)
                   administration of the program.

                   Title 7, Code of Federal Regulations, part 277 establishes uniform
                   requirements for the management of FSP administrative funds provided
                   to State agencies. Appendix A of this part, “Principles for Determining
                   Costs Applicable to Administration of the FSP by State agencies,” sets
                   forth the principles for determining the allowable costs of administering
                   the program. In addition, the Office of Management and Budget
                   (OMB) Circular A-87 provides cost principles for State, local, and
                   Indian Tribal governments. The FNS MARO primarily uses OMB
                   standards when reviewing a State’s expenses. Attachment D of OMB
                   Circular A-87 established the Department of Health and Human
                   Services (HHS) as the cognizant Federal agency responsible for
                   approving cost allocation plans of State-level agencies.

                   The FSP is implemented at the local level through New Jersey’s
                   21 county offices. Each county maintains a County Welfare Agency
                   (CWA) which evaluates an applicant’s needs and provides assistance to
                   that applicant based on the assessment and eligibility determinations.
                   Although the State agency does not require counties to adopt a specific
                   plan to operate the assistance programs, each CWA will generally have
                   at least two work units (i.e., a Family Services Section and a
                   Non-Public Assistance Section) that determine applicant eligibility for
                   the FSP. The Family Services Section will evaluate applicants’
                   eligibility for multiple programs including Medicaid, HHS’ Temporary
USDA/OIG-A/27002-25-Hy                                                               Page 1
                   Assistance for Needy Families (TANF), and the FSP. The Non-Public
                   Assistance Section will evaluate applicants’ eligibility for the FSP and
                   New Jersey’s General Assistance program.

                   The State agency and its counties base their direct and indirect
                   administrative costs on their cost allocation plan approved by HHS, the
                   cognizant Federal agency. Prior to approval, FNS has the opportunity
                   to review the plan and submit comments to HHS. FSP administrative
                   costs are charged directly or allocated based on approved
                   methodologies including random moment time studies. Under random
                   moment time studies, management selects a statistical sample of
                   employees to indicate the programs they worked on at the sample time.
                   The information is compiled and used to distribute costs to each
                   program. New Jersey uses random moment studies to allocate costs for
                   all counties’ Family Services Section work units and for seven
                   counties’ Non-Public Assistance work units.

                   State agencies use the Financial Status Report, Standard Form 269, to
                   report quarterly program costs to FNS. Costs are either directly charged
                   to the FSP or allocated based on the approved cost allocation plan.

Objectives         Our audit objective was to determine the accuracy and allowability of
                   administrative costs claimed by the State of New Jersey.

                   In FY 2006, New Jersey received almost $91 million in administrative
                   funding. Of this amount, we selected the cost of applicant certification
                   (i.e., payroll cost) for review because it was almost 50 percent
                   ($45.3 million) of the total claim.




USDA/OIG-A/27002-25-Hy                                                              Page 2
Findings and Recommendations
Section 1              New Jersey Counties Improperly Allocated Payroll Costs

Finding 1                              …………………………………………………………………………..
                                       The three New Jersey counties included in our review did not adhere to
                                       approved methods when payroll costs were allocated to the FSP. The
                                       counties did not ensure employees’ salaries were charged to the correct
                                       work units and two of the three counties did not ensure that all
                                       employees subject to sampling were included in the sample universe
                                       prior to making sample selections for random moment time studies.
                                       This occurred because county office staff misunderstood instructions
                                       from the State agency pertaining to personnel that should be included in
                                       the sample universe. The State agency had not ensured that allocations
                                       complied with policy and procedures but instead relied on OMB
                                       Circular A-133 Single Audits of county operations. However, the
                                       A-133 Compliance Supplement suggests, but does not require, testing
                                       of a State agency’s cost allocation plan. As a result, there is no
                                       assurance that payroll cost allocation was addressed in the Single
                                       Audits and the costs charged to the FSP were appropriate.

                                       OMB Circular A-87 states that a cost is allocable to a particular cost
                                       objective only if the services are charged in accordance with the
                                       relative benefit received. When systems use sampling methods (such as
                                       random moment time studies), they must meet acceptable statistical
                                       sampling standards and the sampling universe must include all of the
                                       employees whose salaries are to be allocated based on sample results. 6

                                       In New Jersey, random moment studies are used to allocate costs for all
                                       counties’ Family Services Section work units and for seven counties’
                                       Non-Public Assistance work units. The State agency samples county
                                       staff using standard scientific and statistical random methods. County
                                       monitors observe a random sample of workers at randomly selected
                                       “moments” during the work period each quarter, and record the
                                       program activities the workers are involved in at the selected
                                       “moment.” The observations are recorded on preprinted forms which
                                       are then submitted to the State agency for tabulation and summary. The
                                       observations are summarized into distributions of work-time to various
                                       program activities. The distributions are then converted into dollar
                                       amounts of program expenditures and allocated to specific programs
                                       including the FSP.



6
    OMB Circular A-87 allows for the allocation of salaries for the sampled employees’ supervisors, clerical, and support staff based on the results
    of the sampled employees.
USDA/OIG-A/27002-25-Hy                                                                                                                   Page 3
                                       In accordance with OMB A-87, the sampling universe must include all
                                       employees whose salaries are to be allocated to be statistically valid. In
                                       addition, since random moment time studies are used for the various
                                       work units in each county office, the salary for personnel assigned to
                                       each work unit must be included in the total payroll expenses prior to
                                       making cost allocations for the unit. If an employee works for more
                                       than one work unit during the period, salary costs should be charged to
                                       the appropriate units prior to allocating costs to specific programs.

                                       During our audit, we reviewed payroll costs in three New Jersey
                                       counties: Essex, Ocean, and Mercer. These payroll costs were allocated
                                       to various Federal and State programs, including the FSP, based on the
                                       HHS-approved cost allocation plan. Our review included over
                                       $10.5 million of the almost $45 million in total payroll costs allocated
                                       in New Jersey during the period January 1, 2006 through
                                       March 31, 2006.

                                       We found that each of the three counties did not adhere to approved
                                       methods when allocating payroll costs to the FSP. The majority of the
                                       discrepancies noted occurred in Essex and Ocean Counties. Mercer
                                       County’s quarterly reconciliation by the unit supervisor of the “worker
                                       update list”7 to the actual employees in the unit limited the
                                       misallocation of payroll costs.

                                       Payroll Costs Not Included In Proper Work Unit Prior to Allocation

                                       County staff for the three counties included in our review did not
                                       ensure that payroll costs for employees were appropriately charged to
                                       the work units for which they were performing activities prior to
                                       allocating costs to specific programs. Program activities, such as
                                       determination of applicant eligibility, were assigned to specific work
                                       units; however, the salaries of the employees performing these
                                       functions were not always captured within the proper unit.

                                       Work units in New Jersey counties, such as the Family Services
                                       Section, perform activities for multiple programs, including the FSP,
                                       TANF, and Medicaid. Employees are assigned to a primary work unit
                                       but, if necessary, salary costs may be shifted to other units based on
                                       employees’ activity reports.

                                       In Essex County, we identified 42 employees whose payroll costs
                                       totaling almost $515,000 were not charged to the work unit for which
                                       they performed activities. County officials told us that a major

7
    New Jersey counties use worker update lists to identify, and the State agency uses them to select, employee positions for observation as part of
    the random moment time studies.
USDA/OIG-A/27002-25-Hy                                                                                                                   Page 4
                                       reorganization occurred within the agency in February 2006 and staff
                                       inexperience resulted in costs being charged to incorrect work units.

                                       In Ocean County, 32 employees with payroll costs totaling more than
                                       $551,000, were identified as working in the Family Services Section
                                       work unit during the random moment time study; however, none of
                                       their salaries were charged to the unit prior to the cost allocation. These
                                       workers’ salaries were charged to the Non-Public Assistance work unit
                                       which only performs activities for the FSP and the State’s General
                                       Assistance program. Since the workers actually performed tasks for the
                                       Family Services Section, they also performed tasks for TANF,
                                       Medicaid, and other programs. Therefore, their payroll costs were not
                                       appropriately allocated to the benefiting Federal and State programs.

                                       In Mercer County, one employee’s quarterly salary costs of about
                                       $19,000 were charged to the Family Services Section work unit while
                                       the employee was performing activities for the Non-Public Assistance
                                       unit. County personnel overlooked this employee’s work assignment.

                                       Employees Excluded or Improperly Included In Random Moment Time
                                       Study Universe

                                       New Jersey counties use “worker update lists” to identify, and the State
                                       agency uses them to select, employee positions for observation as part
                                       of the random moment time studies.8 We found that two county offices
                                       did not always include all workers on the lists for the appropriate work
                                       units or workers were included with an incorrect work unit. Some of
                                       these workers were excluded from selection during the time studies.
                                       This could invalidate the statistical method used to allocate costs in the
                                       counties. OMB Circular A-87 requires that when statistical sampling
                                       methods are used (such as time studies), the sampling universe must
                                       include all of the employees whose salaries are to be allocated based on
                                       sample results.

                                       As noted in the prior section, in Essex County employee payroll costs
                                       were not always charged to the correct work unit prior to allocation of
                                       costs. In addition, we identified eight employees who were listed on the
                                       Family Services Section work unit payroll all quarter, but were not
                                       included on the unit’s “worker update list” and were, therefore,
                                       excluded from potential selection during the random moment study.
                                       County staff said that these employees were transferred to a different
                                       work unit in February 2006. However, the employees were performing
                                       activities for the Family Services Section unit in January 2006 and
                                       should have been included in the update for possible selection.

8
    Identification and selection is driven by employee position numbers. If employees are not assigned a position, they are not subject to selection.
USDA/OIG-A/27002-25-Hy                                                                                                                     Page 5
                   In Ocean County, not all eligible Family Services Section staffs were
                   included in the universe for the random moment study. This eliminated
                   them from potential observation and potentially invalidated the results
                   of the statistical study. County personnel stated they misunderstood
                   instructions from the State agency as to who should be included on the
                   “worker update list” for the random moment study.

                   During our review period (January 1 through March 31, 2006) the
                   Family Services Section work unit in Ocean County listed between
                   37 and 42 employees who determined FSP eligibility on its payroll
                   each pay period. Based on our review of the quarter’s first pay period
                   payroll, we noted that 10 employees were not listed on the “worker
                   update list” submitted to the State agency for observation selections.

                   In addition, the county staff included 33 employees from the
                   Non-Public Assistance work unit in the Family Services Section unit
                   because these employees performed activities benefiting the Family
                   Services Section programs. However, the county did not have records
                   to show when these employees were working on Family Services
                   Section activities as opposed to when they were working on their
                   Non-Public Assistance activities. Only 1 of these 33 employees’
                   salaries was charged to the Family Services Section unit to be allocated
                   by the random moment study results. Our review of the monitors’
                   observation sheets disclosed that these 32 employees worked
                   predominately on the FSP. By including the observations of these
                   employees in the Family Services Section without transferring the
                   employees’ salaries, the statistical results may be invalid.

                   Personnel Activity Reports Were Not Maintained for All Personnel

                   In Ocean County, personnel activity reports were not used to distribute
                   employee salaries in the Non-Public Assistance work unit. In addition,
                   a statistical sampling system (random moment study) was not used to
                   allocate the costs of this work unit. Instead, costs were allocated for
                   60 employees in the unit based on activities of only 6 of the unit’s
                   employees. County personnel stated that the work of the six employees
                   was representative of the entire work unit. Expenses were allocated to
                   the FSP and the State’s General Assistance program based on the
                   activity of the six employees.

                   OMB Circular A-87 requires that when employees work on multiple
                   activities or cost objectives, a distribution of their salaries will be
                   supported by personnel activity reports. The personnel activity reports
                   must reflect the distribution of actual activity for each employee and
                   must account for the total activity for which each employee is
                   compensated. There is no provision to allocate costs based on a sample
USDA/OIG-A/27002-25-Hy                                                              Page 6
                                      of employees unless a statistical sampling methodology is used. Based
                                      on the OMB requirements, employee payroll costs for the Non-Public
                                      Assistance unit in Ocean County should have been allocated based on
                                      each employee’s activity report.

                                      The dollar values cited in this finding relate only to the employees’
                                      salaries and fringe benefits; however, the State agency allocation of
                                      overhead and other support unit costs could also be affected by the
                                      identified salary and personnel misclassifications.9 For example, each
                                      county’s rent expense is allocated to work units based on the units’
                                      staff counts; therefore, if an employee was incorrectly included in a
                                      particular unit then the allocation of rent would be incorrect.

                                      FNS needs to implement controls to ensure that New Jersey payroll
                                      costs are properly allocated to the FSP in accordance with OMB and
                                      State procedures. The State agency should ensure that workers are
                                      adequately trained and understand cost allocation procedures.

Recommendation 1
                                      Instruct the State agency to develop and implement a corrective action
                                      plan to ensure that New Jersey payroll costs are properly charged to
                                      work units and allocated to benefiting programs.

                                      Agency Response.

                                      FNS considered the State agency’s written response to the draft report,
                                      dated August 15, 2008, in preparing its comments to the report. The
                                      State agency’s August 15, 2008 letter reflects information discussed
                                      during the exit conference on July 17, 2008 and outlines the corrective
                                      actions already taken and additional actions planned to address the
                                      audit finding and recommendations. However, the letter does not
                                      include a specific timeline for accomplishing the planned actions. We
                                      believe the corrective actions identified address the audit
                                      recommendations therefore FNS will issue a letter to the State agency
                                      within thirty days of the official audit’s release accepting the corrective
                                      action plan outlined in the August 15, 2008 letter. Our letter will also
                                      require the state agency to provide the implementation dates for the
                                      corrective actions related to Recommendations 2 through 5.

                                      OIG Position.

                                      Although we agree with the approach, we cannot accept FNS’
                                      management decision until FNS provides the proposed implementation

9
    We did not determine the specific dollar impact in the counties we reviewed due to the assumptions that would have been necessary to allocate
    staff counts or determine the amount of time staff performed particular activities.
USDA/OIG-A/27002-25-Hy                                                                                                                 Page 7
                   dates with tasks that are a part of the State agency’s corrective action
                   plan. Specifically, FNS needs to provide dates for when the State
                   agency will (1) review current random moment study instructions and
                   timesheet requirements and (2) issue an official instruction to each
                   CWA to clarify the use of timesheets.

Recommendation 2
                   Instruct the State agency to perform annual reviews of FSP
                   administrative costs to ensure claims are accurate.

                   Agency Response.

                   During the July 17, 2008 exit conference, the State advised that CWA’s
                   are required to have annual audits. State auditors either conduct the
                   actual audit or review the audit if performed by a private certified
                   public accounting firm. The State also has the ability to change the
                   scope of the audits. In light of these facts, and in recognition of the
                   need to maximize all available resources, it was agreed among the
                   attendees that the annual review of FSP administrative costs could be
                   incorporated as part of the annual audits.

                   The State’s August 15, 2008, letter confirmed that the Division of
                   Family Development (DFD) has reached an agreement with their
                   Office of Audit to review FSP administrative costs as part of the annual
                   CWA audit. In addition, each year DFD will select up to three CWA’s
                   for the Office of Audit to perform additional agreed upon reviews of
                   their FSP administrative costs. DFD expects to finalize the new review
                   process within 90 days and begin implementation with the 2008 CWA
                   audits.

                   FNS will request confirmation and documentation that the new review
                   process has been finalized and the schedule for the 2008 CWA audits in
                   which the new process will be included.

                   OIG Position.

                   OIG accepts FNS’ management decision.

Recommendation 3
                   Instruct the State agency to ensure that New Jersey counties’ random
                   moment time studies are based on the appropriate employee positions
                   and the salaries of the employees in these positions.




USDA/OIG-A/27002-25-Hy                                                              Page 8
                   Agency Response.

                   The State’s letter of August 15, 2008, identified and provided specific
                   details regarding the current process of the Worker Update List
                   prepared prior to the beginning of the quarter to be processed through
                   the random moment study. They have also identified various changes
                   during the process which can cause variances between the random
                   moment study sampling list and the payroll. Although there are
                   procedures in the random moment study manual to address the
                   discrepancies, the State agency agreed to reinforce the random moment
                   study procedures with the CWAs through training sessions and has
                   already performed initial training October 10, 16, and 18, 2007.

                   DFD will also require that the CWAs add a certification statement to
                   the random moment study update cover sheet attesting to the agreement
                   by the random moment study monitor and fiscal officer as to the
                   accuracy of the positions included in the Update List. They also
                   committed to reviewing current random moment study instructions
                   related to both the assignment of county staff to appropriate work units
                   and timesheet requirements for employees assigned to multiple work
                   units to determine any changes required and to reissue the instructions
                   as appropriate.

                   FNS will request: 1) a copy of the amended random moment study
                   update cover sheet, 2) the date when the amended random moment
                   study cover sheet is implemented, and 3) the timeline for the random
                   moment study instruction review. We will also request that they
                   provide the completion date and results of the random moment study
                   instruction review to document their efforts.

                   OIG Position.

                   To achieve management decision, FNS needs to provide the dates when
                   the State agency will (1) implement the use of the amended random
                   moment study cover sheet and (2) review the current random moment
                   study instructions.
Recommendation 4
                    Instruct the State agency to require counties to have all employees
                    complete personnel activity reports that reflect the distribution of
                    actual activity for distribution of payroll costs to benefiting programs
                    if random moment time studies are not used to allocate work unit
                    costs.




USDA/OIG-A/27002-25-Hy                                                               Page 9
                   Agency Response.

                   The State’s August 15, 2008, letter advises that they will review current
                   random moment study instructions and timesheet requirements for
                   employees assigned to multiple work units to determine if changes are
                   required to clarify the instructions. In addition, the State will issue an
                   official instruction to the CWA’s to clarify the use of timesheets for
                   employees who split their time to multiple work units and stress that
                   this process is not an option but rather a requirement.

                   We also want to note that the State agency had already taken additional
                   corrective action while the audit was in progress. On
                   February 21, 2008, DFD submitted changes to their Cost Allocation
                   Plan. The State’s revisions were approved by DHHS’ DCA effective
                   January 1, 2008 for: 1) the Random Moment Study of County Family
                   Services Section Workers: Handbook For Monitor; and, 2) the Random
                   Moment Study of County Non-Public Assistance Food Stamps/General
                   Assistance Workers: Handbook for Monitors.

                   FNS will request the timeline for: 1) when the random moment study
                   instructions and timesheet requirements will be reviewed, and 2) when
                   the State agency will issue an official instruction to the CWA’s to
                   clarify the use of timesheets for employees who split their time to
                   multiple work units. We will also request that the State agency advise
                   us regarding the results of the random moment study instruction review
                   and that a copy of the official instruction be provided to document their
                   efforts.

                   OIG Position.

                   To achieve management decision, FNS needs to provide the dates when
                   the State agency will (1) review current random moment study
                   instructions and timesheet requirements and (2) issue an official
                   instruction to each CWA to clarify the use of timesheets.

Recommendation 5
                    Require the State agency to provide training to county staff to ensure
                    all future administrative costs are properly allocated.

                   Agency Response.

                   In response to problems identified during the audit, DFD has already
                   developed a training plan. Initial training was held on
                   October 10, 16, and 18, 2007, at which time trainers stressed the
                   importance of the random moment study position update lists including
                   all of the appropriate positions. Particular emphasis was placed on the
USDA/OIG-A/27002-25-Hy                                                              Page 10
                   necessity for random moment study monitors to interact with the fiscal
                   staff to ensure that the update lists reflect the current staff assignments.
                   Future training of random moment study monitors and fiscal staff will
                   address these issues as part of the on-going training plan.

                   FNS will request: 1) documentation to confirm the participants of the
                   prior training sessions, such as sign-in sheets; 2) the proposed schedule
                   for the additional training sessions planned for Fiscal Year 2009; and 3)
                   the training syllabus or agenda for the future training sessions.


                   OIG Position.

                   OIG accepts FNS’ management decision




USDA/OIG-A/27002-25-Hy                                                                Page 11
Scope and Methodology
                   We performed our audit at FNS’ MARO in Robbinsville, New Jersey,
                   the State agency in Trenton, New Jersey, and selected CWAs. This
                   work, both onsite and followup, was performed from
                   January 2007 through May 2008. To accomplish our objective, we
                   interviewed the appropriate Federal, State, and county officials;
                   examined pertinent documentation regarding costs claimed; and
                   reviewed applicable policies and procedures for claiming costs for
                   reimbursement.

                   We selected the State of New Jersey because it consistently claimed
                   administrative costs that were among the highest in the Nation when
                   calculated as a percentage of benefits issued. Within New Jersey, the
                   Department of Human Services supervises the 21 CWAs which operate
                   the FSP, along with other Federal, State, and county programs.

                   For FY 2006, FNS reimbursed New Jersey’s claim of almost
                   $91 million, the Federal share of the administrative costs. Of this
                   amount, we selected the cost of applicant certification to test because it
                   was almost 50 percent ($45.3 million) of the total claim. Within
                   FY 2006, we selected the costs claimed from January 1, 2006 through
                   March 31, 2006 for detail examination. For this quarter, the 21 counties
                   incurred almost $24.6 million to certify applicants eligible for the FSP;
                   half of this amount was eligible for reimbursement by USDA. The
                   majority of costs assigned to the FSP were payroll costs, with other
                   costs (e.g., building expenses, central CWA offices, etc.,) allocated
                   based on either the number of employees or total payroll expense.

                   We selected 3 of New Jersey’s 21 CWAs for onsite review: Essex,
                   Ocean, and Mercer. We selected the Essex CWA based on the large
                   dollar value of their claim. The Ocean and Mercer CWAs were selected
                   based on the percentage of costs the Public Assistance work units
                   allocated to the FSP. Ocean County had the second highest percentage
                   (approximately 62 percent) and Mercer had the second lowest
                   percentage (approximately 20 percent) for the quarter. The 21 counties
                   averaged over 37 percent of Public Assistance unit charges to the FSP.

                   All 21 counties have a Family Services Section which oversees the FSP
                   along side other Public Assistance programs. New Jersey and its
                   21 counties selected the random moment study method to allocate cost
                   between programs for this unit. With the assistance of our statistician,
                   we confirmed that the statistical design of the random moment study
                   was adequate.

USDA/OIG-A/27002-25-Hy                                                              Page 12
                   For those FSP applicants who are not eligible for Public Assistance,
                   most of the New Jersey counties have opted to create an eligibility unit
                   titled “Non-Public Assistance/General Assistance.” Seven counties
                   selected the random moment study method to allocate these units’ costs
                   between programs assigned to it. Essex and Mercer counties were
                   among these seven counties performing random moment studies. With
                   the assistance of our statistician, we confirmed that the statistical design
                   of the studies was adequate. Ocean County, along with 13 other
                   counties who chose not to conduct a random moment study for this
                   work unit, was required to adhere to FNS and OMB requirements to
                   directly charge or allocate program costs.

                   We reviewed documents supporting the amounts claimed by the State
                   of New Jersey and the Essex, Mercer, and Ocean CWAs. These
                   documents included the CWA forms and procedures, the cost allocation
                   plans, random moment study handbooks, payrolls of relevant units, and
                   random moment study documents (including the worker updates which
                   established the universe for the studies, the completed observation
                   sheets which recorded the employee actions during the observation
                   period, and the study result documents).

                    We conducted this performance audit in accordance with Government
                    Auditing Standards. Those standards require that we plan and perform
                    the audit to obtain sufficient, appropriate evidence to provide a
                    reasonable basis for our findings and conclusions based on our audit
                    objectives. We believe that the evidence obtained provides a
                    reasonable basis for our findings and conclusions based on our audit
                    objectives.




USDA/OIG-A/27002-25-Hy                                                                Page 13
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 7




USDA/OIG-A/27002-25-Hy                     Page 14
                         Exhibit A – Page 2 of 7




USDA/OIG-A/27002-25-Hy                Page 15
                         Exhibit A – Page 3 of 7




USDA/OIG-A/27002-25-Hy                Page 16
                         Exhibit A – Page 4 of 7




USDA/OIG-A/27002-25-Hy                Page 17
                         Exhibit A – Page 5 of 7




USDA/OIG-A/27002-25-Hy                Page 18
                         Exhibit A – Page 6 of 7




USDA/OIG-A/27002-25-Hy                Page 19
                         Exhibit A – Page 7 of 7




USDA/OIG-A/27002-25-Hy                Page 20
